No.

IN THE
SUPREME COURT OF THE UNITED STATES

DENNIS SENA,
Petitioner,
-v.STEVEN KENNEWAY, SUPERINTENDENT
Respondent.

AFFIDAVIT OF TIMELY FILING BY MAIL
I, Elizabeth Prevett, on oath, depose and say:
1.

I submit this affidavit in accordance with Rule 29 .2 of this Court.

2.

The petition for writ of certiorari enclosed herein is being sent via first class mail,

postage prepaid on this 8th day of October, 2021 to:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
3.

The mailing is within the permitted time for the petition for certiorari. Made this 8th

day of October, 2021 under the penalties of perjury.

Elizabeth L. Prevett

